IN THE SUPREME COURT OF THE UNITED STATES

SMALL, DONTAE
Petitioner
vs.

No:

19-1102

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
March 12, 2020
cc:
PARESH S. PATEL
OFFICE OF FEDERAL PUBLIC
DEFENDER
DISTRICT OF MARYLAND
6411 IVY LANE
SUITE 710
GREENBELT, MD 20770
BRANDON L. BOXLER
GIBSON,DUNN & CRUTCHER LLP
1050 CONNECTICUT AVE., NW
WASHINGTON, DC 20036

